SEC.gov |  Exhibits to Report of Investigation
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Exhibits to Report of Investigation
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
List of exhibits for Investigation of Failure of the SEC to Uncover Bernard Madoff's Ponzi Scheme (Report No. OIG-509):
Exhibit 1
Exhibit 2
Exhibit 3
Exhibit 4 Corrected – November 5, 2009
Exhibit 5
Exhibit 6
Exhibit 7
Exhibit 8
Exhibit 9
Exhibit 10
Exhibit 11 Corrected – December 8, 2009
Exhibit 12 Corrected – December 8, 2009
Exhibit 13 Corrected – December 8, 2009
Exhibit 14
Exhibit 15
Exhibit 16
Exhibit 17
Exhibit 18
Exhibit 19
Exhibit 20
Exhibit 21
Exhibit 22 Corrected – December 8, 2009
Exhibit 23 Corrected – December 8, 2009
Exhibit 24
Exhibit 25
Exhibit 26
Exhibit 27
Exhibit 28 Corrected – November 5, 2009
Exhibit 29 Corrected – November 3, 2009
Exhibit 30
Exhibit 31
Exhibit 32
Exhibit 33
Exhibit 34
Exhibit 35
Exhibit 36
Exhibit 37
Exhibit 38 Corrected – December 8, 2009
Exhibit 39
Exhibit 40
Exhibit 41
Exhibit 42 Corrected – December 8, 2009
Exhibit 43 Corrected – December 8, 2009
Exhibit 44
Exhibit 45
Exhibit 46
Exhibit 47 Corrected – December 8, 2009
Exhibit 48 Corrected – December 8, 2009
Exhibit 49
Exhibit 50
Exhibit 51
Exhibit 52
Exhibit 53 Corrected – December 8, 2009
Exhibit 54
Exhibit 55
Exhibit 56
Exhibit 57
Exhibit 58
Exhibit 59
Exhibit 60
Exhibit 61
Exhibit 62
Exhibit 63
Exhibit 64
Exhibit 65
Exhibit 66
Exhibit 67
Exhibit 68
Exhibit 69 Corrected – November 23, 2009
Exhibit 70
Exhibit 71 Corrected – November 25, 2009
Exhibit 72 Corrected – November 23, 2009
Exhibit 73 Corrected – November 23, 2009
Exhibit 74
Exhibit 75
Exhibit 76
Exhibit 77
Exhibit 78
Exhibit 79
Exhibit 80
Exhibit 81
Exhibit 82
Exhibit 83
Exhibit 84 Corrected – November 23, 2009
Exhibit 85 Corrected – November 23, 2009
Exhibit 86
Exhibit 87
Exhibit 88
Exhibit 89
Exhibit 90
Exhibit 91
Exhibit 92
Exhibit 93
Exhibit 94
Exhibit 95
Exhibit 96
Exhibit 97
Exhibit 98
Exhibit 99
Exhibit 100
Exhibit 101
Exhibit 102
Exhibit 103
Exhibit 104
Exhibit 105
Exhibit 106
Exhibit 107
Exhibit 108
Exhibit 109 Corrected – December 8, 2009
Exhibit 110
Exhibit 111 Corrected – December 8, 2009
Exhibit 112
Exhibit 113
Exhibit 114
Exhibit 115
Exhibit 116
Exhibit 117
Exhibit 118
Exhibit 119
Exhibit 120
Exhibit 121
Exhibit 122
Exhibit 123
Exhibit 124
Exhibit 125
Exhibit 126
Exhibit 127
Exhibit 128
Exhibit 129
Exhibit 130
Exhibit 131
Exhibit 132
Exhibit 133
Exhibit 134
Exhibit 135
Exhibit 136
Exhibit 137
Exhibit 138
Exhibit 139
Exhibit 140
Exhibit 141
Exhibit 142
Exhibit 143
Exhibit 144
Exhibit 145
Exhibit 146
Exhibit 147
Exhibit 148
Exhibit 149
Exhibit 150
Exhibit 151
Exhibit 152
Exhibit 153
Exhibit 154
Exhibit 155
Exhibit 156
Exhibit 157
Exhibit 158
Exhibit 159
Exhibit 160
Exhibit 161
Exhibit 162
Exhibit 163
Exhibit 164 Corrected – December 8, 2009
Exhibit 165
Exhibit 166
Exhibit 167
Exhibit 168
Exhibit 169
Exhibit 170
Exhibit 171
Exhibit 172
Exhibit 173
Exhibit 174
Exhibit 175
Exhibit 176
Exhibit 177
Exhibit 178
Exhibit 179
Exhibit 180
Exhibit 181
Exhibit 182
Exhibit 183
Exhibit 184
Exhibit 185
Exhibit 186
Exhibit 187
Exhibit 188
Exhibit 189
Exhibit 190
Exhibit 191
Exhibit 192
Exhibit 193
Exhibit 194
Exhibit 195
Exhibit 196
Exhibit 197
Exhibit 198
Exhibit 199
Exhibit 200
Exhibit 201
Exhibit 202 Corrected – November 5, 2009
Exhibit 203
Exhibit 204
Exhibit 205
Exhibit 206
Exhibit 207
Exhibit 208
Exhibit 209
Exhibit 210
Exhibit 211
Exhibit 212
Exhibit 213
Exhibit 214
Exhibit 215
Exhibit 216
Exhibit 217
Exhibit 218
Exhibit 219
Exhibit 220
Exhibit 221
Exhibit 222
Exhibit 223
Exhibit 224
Exhibit 225
Exhibit 226
Exhibit 227
Exhibit 228
Exhibit 229
Exhibit 230
Exhibit 231
Exhibit 232
Exhibit 233
Exhibit 234
Exhibit 235
Exhibit 236
Exhibit 237
Exhibit 238
Exhibit 239
Exhibit 240
Exhibit 241
Exhibit 242
Exhibit 243
Exhibit 244
Exhibit 245
Exhibit 246
Exhibit 247
Exhibit 248
Exhibit 249
Exhibit 250
Exhibit 251
Exhibit 252
Exhibit 253
Exhibit 254
Exhibit 255
Exhibit 256
Exhibit 257
Exhibit 258
Exhibit 259
Exhibit 260
Exhibit 261
Exhibit 262
Exhibit 263
Exhibit 264
Exhibit 265
Exhibit 266
Exhibit 267
Exhibit 268
Exhibit 269
Exhibit 270
Exhibit 271
Exhibit 272
Exhibit 273
Exhibit 274
Exhibit 275
Exhibit 276
Exhibit 277
Exhibit 278
Exhibit 279
Exhibit 280
Exhibit 281
Exhibit 282
Exhibit 283
Exhibit 284
Exhibit 285
Exhibit 286
Exhibit 287
Exhibit 288
Exhibit 289
Exhibit 290
Exhibit 291
Exhibit 292
Exhibit 293
Exhibit 294
Exhibit 295
Exhibit 296
Exhibit 297
Exhibit 298
Exhibit 299
Exhibit 300
Exhibit 301
Exhibit 302
Exhibit 303
Exhibit 304
Exhibit 305
Exhibit 306
Exhibit 307
Exhibit 308
Exhibit 309
Exhibit 310
Exhibit 311
Exhibit 312
Exhibit 313
Exhibit 314
Exhibit 315
Exhibit 316
Exhibit 317
Exhibit 318
Exhibit 319
Exhibit 320
Exhibit 321
Exhibit 322
Exhibit 323
Exhibit 324
Exhibit 325
Exhibit 326
Exhibit 327
Exhibit 328
Exhibit 329
Exhibit 330
Exhibit 331
Exhibit 332
Exhibit 333
Exhibit 334
Exhibit 335
Exhibit 336
Exhibit 337
Exhibit 338
Exhibit 339
Exhibit 340
Exhibit 341
Exhibit 342
Exhibit 343
Exhibit 344
Exhibit 345
Exhibit 346
Exhibit 347
Exhibit 348
Exhibit 349
Exhibit 350
Exhibit 351
Exhibit 352
Exhibit 353
Exhibit 354
Exhibit 355
Exhibit 356
Exhibit 357
Exhibit 358
Exhibit 359
Exhibit 360
Exhibit 361
Exhibit 362
Exhibit 363
Exhibit 364
Exhibit 365
Exhibit 366
Exhibit 367
Exhibit 368
Exhibit 369
Exhibit 370
Exhibit 371
Exhibit 372
Exhibit 373
Exhibit 374
Exhibit 375
Exhibit 376
Exhibit 377
Exhibit 378
Exhibit 379
Exhibit 380
Exhibit 381
Exhibit 382
Exhibit 383
Exhibit 384
Exhibit 385
Exhibit 386
Exhibit 387
Exhibit 388
Exhibit 389
Exhibit 390
Exhibit 391
Exhibit 392
Exhibit 393
Exhibit 394
Exhibit 395
Exhibit 396
Exhibit 397
Exhibit 398
Exhibit 399
Exhibit 400
Exhibit 401
Exhibit 402
Exhibit 403
Exhibit 404
Exhibit 405
Exhibit 406
Exhibit 407
Exhibit 408
Exhibit 409
Exhibit 410
Exhibit 411
Exhibit 412
Exhibit 413
Exhibit 414
Exhibit 415
Exhibit 416
Exhibit 417
Exhibit 418
Exhibit 419
Exhibit 420
Exhibit 421
Exhibit 422
Exhibit 423
Exhibit 424
Exhibit 425
Exhibit 426
Exhibit 427
Exhibit 428
Exhibit 429
Exhibit 430
Exhibit 431
Exhibit 432
Exhibit 433
Exhibit 434
Exhibit 435
Exhibit 436
Exhibit 437
Exhibit 438
Exhibit 439
Exhibit 440
Exhibit 441
Exhibit 442
Exhibit 443
Exhibit 444
Exhibit 445
Exhibit 446
Exhibit 447
Exhibit 448
Exhibit 449
Exhibit 450
Exhibit 451
Exhibit 452
Exhibit 453
Exhibit 454
Exhibit 455
Exhibit 456
Exhibit 457
Exhibit 458
Exhibit 459
Exhibit 460
Exhibit 461
Exhibit 462
Exhibit 463
Exhibit 464
Exhibit 465
Exhibit 466
Exhibit 467
Exhibit 468
Exhibit 469
Exhibit 470
Exhibit 471
Exhibit 472
Exhibit 473
Exhibit 474
Exhibit 475
Exhibit 476
Exhibit 477
Exhibit 478
Exhibit 479
Exhibit 480
Exhibit 481
Exhibit 482
Exhibit 483
Exhibit 484
Exhibit 485
Exhibit 486
Exhibit 487
Exhibit 488
Exhibit 489
Exhibit 490
Exhibit 491
Exhibit 492
Exhibit 493
Exhibit 494
Exhibit 495
Exhibit 496
Exhibit 497
Exhibit 498
Exhibit 499
Exhibit 500
Exhibit 501
Exhibit 502
Exhibit 503
Exhibit 504
Exhibit 505
Exhibit 506
Exhibit 507
Exhibit 508
Exhibit 509
Exhibit 510
Exhibit 511
Exhibit 512
Exhibit 513
Exhibit 514
Exhibit 515
Exhibit 516
Exhibit 517
Exhibit 518
Exhibit 519
Exhibit 520
Exhibit 521
Exhibit 522
Exhibit 523
Exhibit 524
Exhibit 525
Exhibit 526
Exhibit 527
Exhibit 528
Exhibit 529
Exhibit 530
Exhibit 531
Exhibit 532
Exhibit 533
Exhibit 534
Exhibit 535
Exhibit 536
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us